WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-1088

David Carson, et al. | A Pender Makin

(Petitioner) Vv. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© I am filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

 

 

Please check the appropriate box:
Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO I am not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: | Orncd A- Faete—
Date: / 3 fajer

(Type or print) Name

 

 

Sarah A. Forster

 

O mr. © Ms. © Mrs.
Firm lottice of the Attorney General
Address ‘(6 State House Station —

 

 

City & State (Augusta, ME

 

 

Phone '207-626-8866

 

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Michael Eugene Bindas, Esq.
